               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Small Business Growth

                       Audit Report




                                        June 20, 2013

Report Number MS-AR-13-009
                                                                          June 20, 2013

                                                              Small Business Growth

                                                        Report Number MS-AR-13-009




BACKGROUND:
There are 23 million small businesses in     the effectiveness of growth in the small
the U.S. and they play a vital role in the   business market by developing and
national economy and the mailing             implementing a strategy to place
industry. They are one of the U.S.           organizational priority on generating
Postal Service’s key customer                small business revenue; further
segments, generating more than               leveraging the relationship postmasters
$9 billion in annual revenue, and the        have with local small businesses by
small business mailing and shipping          establishing a process for postmasters
marketplace continues to grow. The           to obtain funding to join local civic
Postal Service has focused on growing        organizations; enhancing collaboration
small business revenue and has a             between postmasters and sales staff
variety of ongoing initiatives. Two          and developing clear communication
initiatives are a program for postmasters    paths to support postmasters; and
to build contacts, leads, and                improving the availability and usage of
relationships with small businesses and      quality sales-related tools, data, and
a contracted sales staff (telesales) to      training.
reach the small business market.
                                             We estimate these collective
Postmasters and sales staff are central      improvements could result in additional
to these initiatives — postmasters often     small business revenue of $122 million
are the link to local small businesses       in fiscal year 2013.
while sales staff members manage and
implement many small business-related        WHAT THE OIG RECOMMENDED:
programs. Our objectives were to             We recommended the Postal Service
evaluate the effectiveness of the Postal     develop a strategy to increase the
Service’s postmasters' and sales staff's     priority that postmasters and sales staff
efforts for growing small business           place on generating small business
revenue and identify opportunities for       revenue. We also made
growth.                                      recommendations regarding postmaster
                                             involvement in civic organizations; sales
WHAT THE OIG FOUND:                          staff interaction with postmasters; and
There is an opportunity for the Postal       the availability and use of sales-related
Service to retain and grow revenue from      tools, market data, and training.
its existing and prospective small
businesses by improving the efficiency       Link to review the entire report
of its postmasters’ and sales staff's
efforts. The Postal Service can improve
June 20, 2013

MEMORANDUM FOR:                       WILLIAM C. RUCKER III
                                      VICE PRESIDENT, SALES

                                      EDWARD F. PHELAN, JR.
                                      VICE PRESIDENT, DELIVERY AND POST OFFICE
                                      OPERATIONS



FROM:                                 Darrell E. Benjamin, Jr.
                                      Deputy Assistant Inspector General
                                       for Revenue and Performance

SUBJECT:                              Audit Report – Small Business Growth
                                      (Report Number MS-AR-13-009)

This report presents the results of our audit of the U.S. Postal Service’s Small Business1
Growth (Project Number 12RG032MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Nagisa Manabe
    Megan J. Brennan
    Jeffrey C. Williamson
    Sean M. Lacey
    Corporate Audit and Response Management




1
    For the purpose of this audit we consider businesses with less than 500 employees.
Small Business Growth                                                                                              MS-AR-13-009




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Organizational and Operational Issues Hinder Small Business Efforts ........................... 2

   Small Business Revenue Priority ................................................................................. 3

   Postmasters ................................................................................................................. 3

   Sales Staff ................................................................................................................... 6

   Leveraging Postmaster Relationships ......................................................................... 6

   Partnership Opportunities Between Postmasters and Sales Staff ............................... 8

      Sales Tools, Data, and Training ............................................................................. 11

Recommendations ........................................................................................................ 12

Management’s Comments ............................................................................................ 13

Evaluation of Management’s Comments ....................................................................... 13

Appendix A: Additional Information ............................................................................... 16

   Background ............................................................................................................... 16

   Objectives, Scope, and Methodology ........................................................................ 17

   Prior Audit Coverage ................................................................................................. 19

Appendix B: Monetary Impact ....................................................................................... 20

Appendix C: Postmaster Survey ................................................................................... 24

Appendix D: Management's Comments ........................................................................ 28
Small Business Growth                                                                                 MS-AR-13-009




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Small Business
Growth (Project Number 12RG032MS000). Our objectives were to evaluate the
effectiveness of the Postal Service’s postmasters’2 and sales staff's efforts for growing
revenue from small business customers and identify opportunities for growth. This audit
addresses financial and operational risk. See Appendix A for additional information
about this audit.

Small businesses3 play a vital role in the national economy and the mailing industry.
Currently, there are about 23 million small businesses in the U.S. Small businesses are
one of the Postal Service’s key customer segments and they contribute about $9 billion
in revenue (about 14 percent of operating revenue) to the economy annually. The
shipping and mailing market for small businesses continues to grow, in part, from the
rise in e-Commerce related-transactions. The Postal Service has estimated a potential
opportunity for           in new revenue from small businesses.4

The Postal Service has recently renewed its focus on small business customers stating,
“Small businesses are the backbone of the American economy, and the Postal Service
plays an important role in enabling their growth and commercial success.”5 The Postal
Service has focused on growing small business revenue as part of various Delivering
Results, Innovation, Value, and Efficiency (DRIVE) initiatives related to preserving and
growing its shipping and mailing (in other words, marketing, transaction, and
commercial) products and services.

Postmasters and sales staff are both responsible for reaching out to current and
prospective small business customers. Postmasters are typically at the forefront of
interactions with local small business customers, either by providing service, addressing
service issues, or selling Postal Service products and services. The Business Connect
Program was designed to engage postmasters in generating revenue and strengthening
relationships with small business customers.6 Under this program (which is managed by
the sales organization), postmasters are encouraged to contact at least 24 local
businesses each year via group meetings, lobby events or face-to-face customer
meetings. Postmasters are also encouraged to contact sales staff if they require
assistance performing these activities.



2
  For the purposes of our report, “postmaster” includes station managers and other field staff designated to handle
small business sales at a Post Office or Branch Office.
3
  The Small Business Administration (SBA) recently defined a small business as “an independent business having
fewer than 500 employees.” See Small Business Administration - Office of Advocacy (2012 September), Frequently
Asked Questions.
4
  Decision Analysis Report Business Case, Every Door Direct Mail (EDDM) - Inside Sales, February 2012.
5
  Usps.com/News Release No. 12-036, March 20, 2012.
6
  Employee Engagement Program Guidebook, Version 14, page 4, November 16, 2012.
                                                           1
Small Business Growth                                                                                MS-AR-13-009



Sales staff are responsible for managing and implementing many of the support
functions which promote small business growth, including managing a contracted call
center;7 providing tools, data, and training to postmasters; following up on leads from
other Employee Engagement Programs (EEP),8 and inviting postmasters on sales calls.
At the district level, business development specialists (BDS) (which report to district
marketing managers) are often the link between postmasters and sales staff.

Conclusion

There is an opportunity for the Postal Service to retain and grow revenue from its
existing and prospective small businesses by improving the efficiency of postmasters’
and sales staff's efforts. The Postal Service has taken a variety of steps to grow small
business revenue, including building contacts, leads, and relationships with small
business customers through the Business Connect and Inside Sales programs. The
Postal Service can improve the effectiveness of these actions by:

   Developing and implementing a strategy to increase the organizational priority
    placed on generating small business revenue.

   Further leveraging the status of postmasters with local small businesses by
    establishing a process for encouraging postmasters to submit, and management to
    approve, funding requests to join local civic organizations.

   Requiring enhanced collaboration between postmasters and sales staff and
    developing clear communication paths to support postmasters.

   Improving the availability and use of quality sales-related tools, data, and training.

Considering that Postal Service and other market research has shown a multi-billion
dollar opportunity for the Postal Service in the small business market, we estimate that
these collective improvements could result in additional small business revenue of
$122 million in fiscal year (FY) 2013. See Appendix B for our detailed calculation of the
monetary impact.

Organizational and Operational Issues Hinder Small Business Efforts

Opportunities exist for the Postal Service to increase small business revenue by more
effectively using postmasters and sales staff. The Postal Service has undertaken a
range of efforts to grow small business revenue — including the Business Connect and
Inside Sales programs — which focus on building contacts, leads, and relationships with




7
  Inside Sales is a contracted call center program aimed at selling EDDM and other products to small business
customers.
8
  EEPs are initiatives designed for Postal Service employees to identify new business opportunities and leverage
customer relationships to generate new revenue.


                                                         2
Small Business Growth                                                                                   MS-AR-13-009



customers. These actions are consistent with the best practices9 of leading
organizations. However, we found that postmasters and sales staff — the two groups
primarily responsible for generating revenue from small businesses — were not always
effective because the Postal Service has not made generating small business revenue
a high priority for these groups. In addition, the postmaster’s community status is not
being leveraged effectively to build relationships with local businesses. Further, the
collaboration between postmasters and sales staff is not always effective and
sales-related tools, data, and training for postmasters is not readily available or used
effectively. These cumulative organizational and operational issues not only hinder the
effectiveness of the postmasters’ and sales staff’s efforts, but also the Postal Service’s
overall ability to generate revenue from current and potential small business customers.
We estimate these collective improvements could result in additional small business
revenue of $122 million in FY 2013. See Appendix B for monetary impact and our
detailed calculations.

Small Business Revenue Priority

The postmaster general recently testified10 on the importance of retaining existing
revenue streams and seeking out new sources of revenue and the chief operating
officer informed postmasters that everyone is part of the sales force.11 These messages
reinforce the importance of postmasters' and sales staff roles in increasing small
business revenue. However, the Postal Service has not placed a high priority on
generating small business revenue due to a variety of reasons including time
constraints, resource and staffing limitations, and conflicting management priorities.
While we recognize that these challenges are similar to those faced by other leading
service companies,12 we found that other companies place a high priority on generating
revenue from small business customers.

Postmasters

We surveyed 9,073 postmasters at Level 18 and above post offices13 (see Appendix C
for an example of the survey sent). We received 2,549 responses (a 28 percent
response rate), which are summarized throughout this report.




9
  We gathered additional perspective on best practices identified in this report from researching leading organizations
including the Audit Director’s Roundtable, Corporate Executive Board, FedEx, United Parcel Service (UPS), IBM,
Accenture, Wharton Business School, Booz-Allen, and the Sales Executive Council.
10
   Statement of the Postmaster General and Chief Executive Officer Patrick R. Donahoe before the Committee on
Oversight and Government Reform, U.S. House of Representatives, April 17, 2013.
11
   Megan Brennan, chief operating officer and executive vice president, address at the National Association of
Postmasters convention in September 2012.
12
   We reviewed practices used by other leading service-related companies — FedEx, UPS, and IBM — to show that
they place a priority on generating revenue from small businesses.
13
   Includes post offices, stations or branch offices. The Postal Service determines Post Office levels based on factors
such as workload, revenue, delivery points, and number of employees – generally, the higher the level, the larger the
office. We judgmentally chose Level 18 and above offices to obtain responses from postmasters in offices with the
greatest opportunities for small business growth.


                                                           3
Small Business Growth                                                              MS-AR-13-009




The responses below reflect the current level of priority given to generating small
business revenue.

   Forty-eight percent said the Postal Service has not conveyed the message that a
    dollar earned in revenue is equal to a dollar saved in operations.

   Forty-nine percent said they do not have time to pursue new small business
    revenue.

   Fifty-five percent said they spent 1 hour or less each week seeking small business
    sales and 75 percent said they do not have a revenue goal for Business Connect
    meetings.

The following are examples of comments we received from the survey:

   "If generating revenue was persued [sic] like making budget, the Postal Service
    would be rich. If I cost the Postal Service 3 hours of clerk time to sort the parcels for
    dispatch, but made a million dollar sale, I would get negative feedback."

   "All efforts are aimed at cost savings. When new business is generated it is looked
    upon as a burden instead of an opportunity."

   "There are 10-1 times many more telecoms to discuss past operational performance
    than there are those directed at growing the businesses or bringing in new revenues.
    The majority of the manager’s time is spent preparing for the next report/email
    wanting information yesterday or by COB or to get ready for another telecom. The
    sales and lead generating activities need to be brought to the forefront of daily
    activity if we are to grow the business and cut out some of the other redundant
    things we report on."

   "I make the time by considering it to be part of my job. Each day (with the exception
    of Monday when I’m postmaster and delivery supervisor) I spend at least 30 minutes
    on employee engagement programs – I try to have four leads a week. . . I also try to
    group businesses to visit – if I have 30 minutes to go for a drive – I will try to visit two
    or three businesses that are close. I try to always go out and meet people when they
    first open a new business. I think by reaching out to them and actually meeting them
    and showing concern about their shipping needs, it puts us first in their mind. I think
    the main thing for people to do is that they have to consider growing revenue as part
    of their job. It should not be optional – because revenue is what we need, now."

   "In the operations side of the postal service, it seems that higher level management
    has no accountability in regards to revenue generation. The only concern is
    productivity and making the budget. If I were to send out a carrier on overtime to
    provide a customer with a pick up that brought in revenue, I would be receiving a




                                               4
Small Business Growth                                                                                  MS-AR-13-009



     phone call reprimanding me for using overtime and the reasoning for the use of that
     by generating revenue would be laughed at and disregarded."

We met with 34 judgmentally selected postmasters based on Business Connect data14
to obtain additional information related to conflicting management priorities and
resource limitations identified in our survey. Specifically, postmasters raised issues
about how effectively they were using their time, from a revenue and operations
perspective, including being required to:

    Provide support activities for window clerks, such as going to the bank for change
     and performing lobby sweeps.15

    Perform lobby director duties.16

    Spend 8 hours watching window clerks after failing a mystery shop wait time in line.

    Input 10 customer complaints per week into the Enterprise Customer Care system.17

In discussing these survey results and findings with Postal Service managers, they
stated these actions are important for operational and management purposes and not
performing these functions would negatively impact performance. These officials also
stated that many postmasters do not have time to interact with small businesses
because of operational priorities or are not being equipped or trained to do so. They
also stated that small business revenue generation should be on hold until the
infrastructure is right-sized, largely because the savings derived from cutting routes or
other cost-saving actions would greatly offset any small business revenue-generating
efforts. Furthermore, these officials stated that postmasters’ primary focus should be on
operations, as they were not hired to generate revenue.

While we recognize that managing operations is important, discounting a postmasters’
priority for generating small business revenue may not be financially prudent.
Furthermore, such actions are inconsistent with the aforementioned statements of the
postmaster general and chief operation officer who stressed the importance of
generating revenue, and the postmasters' role in doing so, as well as the requirements
as described in the postmasters' job duties.18 Postmasters are in an advantageous

14
   We judgmentally selected high- and low-performing postmasters based on their number of Business Connect
activities and revenue.
15
   Lobby sweeps should be conducted when lines are long due to retail associates conducting lengthy transactions. A
supervisor, postmaster or retail associate can conduct a lobby sweep for customers who are conducting non-revenue
transactions, such as picking up mail.
16
   The lobby director is a friendly, knowledgeable clerk in the lobby who greets customers, determines what they
need, and assists them in selecting services and preparing paperwork before they reach the service counter.
17
   The Enterprise Customer Care application is a case management system that is used to manage customer
inquiries and provides Consumer Affairs Offices and local post offices with email functionality for resolving customer
inquiries.
18
   According to the postmaster (Executive and Administrative Schedule-18-26) job description online on the Postal
Service Blue Pages in April 2013, postmasters are expected to identify with and be appropriately involved with their
community; present a favorable Postal Service image to the community; and have the ability to sell ideas, positions,
and recommendations to others.


                                                          5
Small Business Growth                                                            MS-AR-13-009



position, based on their community status, for reaching out to small business
customers. Emphasizing revenue generation as a priority to postmasters could help
increase their focus and effectiveness during the limited time they have available to
pursue sales.

Sales Staff

Postal Service sales staff also face challenges with making small business growth a
sufficient priority. Staffing limitations and other financial considerations hinder the sales
staff’s efforts to pursue small business revenue. Specifically, sales management
officials stated that it is not cost effective for sales staff to reach out to small business
leads and that available sales staff should focus on larger customers. Consequently,
leads submitted to the sales group as part of the Employee Lead Program may not be
fully pursued by the sales staff. As such, the Postal Service may be missing revenue
opportunities that could result from current leads in the program. In addition, our survey
indicated that 27 percent of postmasters responding said that employees have raised
concerns about a lack of feedback from sales staff regarding the leads they have
submitted. This lack of feedback could prevent employees from pursuing quality leads in
the future.

The Postal Service should develop a clear strategy to ensure that generating small
business revenue is considered a priority for postmasters and sales staff. When
developing this strategy, the Postal Service could emphasize this priority by:

   Evaluating ways to allow postmasters sufficient time to generate sales – this would
    help postmasters prioritize and build revenue-generating responsibilities into their
    workload.

   Setting revenue targets in the Business Connect Program – currently postmasters
    only have targets for the number of Business Connect meetings. Incorporating
    revenue targets into the Business Connect Program could help increase the priority
    on revenue generation.

   Increasing the number of small businesses that postmasters are encouraged to
    contact as part of the Business Connect Program – currently postmasters are
    encouraged to contact 24 small businesses a year (two per month). Increasing this
    target would strengthen the priority on generating revenue from small businesses.

Leveraging Postmaster Relationships

The Postal Service could further leverage the status of its postmasters with local
businesses by actively funding postmaster memberships to local business
organizations, such as Chambers of Commerce. These organizations are often
productive avenues for building relationships with local businesses and more actively
funding these memberships could help postmasters build relationships that are useful
for retaining and growing small business customers.


                                              6
Small Business Growth                                                                                  MS-AR-13-009




The Postal Service has emphasized that the postmaster title weighs heavily in the
community as a valued resource to assist customers with their mailing and shipping
needs.19 Applicable research also supports this conclusion and states the following
regarding the power of relationships in generating revenue:

    Relationships are the greatest “off-balance sheet” asset a business has, and
     businesses need to leverage these relationships instead of reinventing them.20

    Businesses are 10 times more likely to grow revenue from an existing customer than
     a new customer. Keeping existing customers is a part of the revenue-generating
     process that is often undervalued.21

    Positive relationships with existing customers can create a strong barrier of entry to
     its competitors.22

    Having established relationships with prior customers can be a useful tool for
     winning these customers back — businesses are twice as likely to successfully sell
     to a lost customer than to a brand new customer.23

Current Postal Service policy allows for expenditures that further the business and
competitive interests of the Postal Service24 — and fees or membership dues to local
business organizations are allowable under that policy. We identified 143 post offices25
which had membership fees in local business organizations paid by the Postal Service
in FY 2012. The total fees paid were $39,722, while corresponding Business Connect
data showed that these offices reported revenue of $8.9 million. This is a significant
return on investment (ROI). According to our survey results, only 8 percent of the
responding postmasters have a Postal Service-sponsored membership. Some
postmasters stated they were denied funds for membership or were not aware that the
Postal Service would sponsor their membership. We also found that some postmasters
were paying membership fees from their personal funds because they felt the
membership was important.

Encouraging postmasters to submit, and management to approve, funding requests to
join appropriate local civic organizations could be an effective mechanism for gaining
new revenue by leveraging and building relationships with current and prospective small
businesses in the community. Furthermore, these relationships may be useful for
offsetting other considerations that small businesses make when deciding to conduct
business with the Postal Service. For example, a previous eBay manager pointed out

19
   Employee Engagement Program Guidebook, Version 14, page 4, November 16, 2012.
20
   David Nour, “Relationship Economics,” John Wiley & Sons © 2011.
21
   David Nour, “Relationship Economics,” John Wiley & Sons © 2011 pages 117-118.
22
   David Nour, “Relationship Economics,” John Wiley & Sons © 2011 pages 117-118
23
   Jill Griffin, “Customer Loyalty,” Jossey-Bass A Wiley Imprint © 2002, page 220.
24
   Administrative Support Manual, Section 7, November 29, 2012.
25
   We identified the 143 offices based on a review of accounts payable data for civic organizations recorded in the
Accounting Data Mart.


                                                          7
Small Business Growth                                                                 MS-AR-13-009



that, typically, small businesses start with the Postal Service, but then leave for
discounts offered by UPS and FedEx.26 The Postal Service could reduce defection and
bring back lost customers by encouraging postmaster relationships with small
businesses in their community.

Partnership Opportunities Between Postmasters and Sales Staff

The collaboration between postmasters and sales staff is not effective in generating
small business revenue. The FY 2012 Sales Management Process states that local
sales staff should routinely invite postmasters to accompany them to customer meetings
and request the postmasters to follow-up with customers. In addition, postmasters are
encouraged to contact their local sales team for assistance with their Business Connect
opportunities.27 This effective partnership is consistent with that of leading
organizations, which found that collaborative relationships between sales staff and other
staff who interact with customers (similar to how postmasters would) is useful for
retaining current customers and capturing new customers.

However, our survey results found the following issues related to the current
partnerships between the postmasters and the sales staff:

      Seventy-two percent of postmasters had not been invited to accompany a sales
       representative to a sales meeting in the past year.

      Forty-five percent of postmasters did not know who their sales representatives were.

      Fifty-one percent of postmasters had not met with a sales representative within the
       past year.

In discussing these survey results and findings with Postal Service sales managers,
they agreed that many postmasters may not know their sales representative, but
instead may be contacting a BDS in their respective district office in lieu of their sales
representative. We found that the sales-related duties and responsibilities of a BDS,
who is a member of a district marketing team and not the sales organization, vary
throughout the organization. For example, some are heavily involved in reviewing EEP
leads, while others are more focused on promoting involvement in, and educating
postmasters on, EEP programs. Developing clear communication paths for postmasters
to get support from either a BDS or sales representative would benefit postmasters in
their small business revenue-generating efforts.

We also found that many postmasters misunderstand the collaborative element of the
Business Connect Program, which may have resulted in revenue opportunities that
were not fully pursued. Based on our survey results, 59 percent of postmasters stated
they believed that sales staff would follow up on information they enter into Business
Connect. However, based on a review of Postal Service documents and conversations

26
     Jeff Jordan, “Avoiding Financial Armageddon at the Post Office,” The Atlantic.
27
     FY 2012 Sales Management Process, April 2012, page 43.


                                                             8
Small Business Growth                                                                                MS-AR-13-009



with the sales staff, we found the sales staff does not follow-up on Business Connect
entries unless they are contacted by the postmaster and Business Connect is not
considered a sales lead-generating program. Thus, in instances where postmasters did
not take it upon themselves to contact a member of the sales staff, the meetings logged
in Business Connect were not reviewed or acted upon — a condition that likely resulted
in lost revenue opportunities.

In FY 2012, we found that 1,694 of the 653,000 meetings logged into Business Connect
were later logged by sales staff into CustomerFirst!28 as leads after being contacted by
postmasters. We analyzed the 1,694 leads and compared them to other categories of
leads recorded by sales staff. We found that close rates and average sales for a
Business Connect lead source —when a postmaster contacts and collaborates with the
sales staff — are higher compared to other lead sources recorded by the sales staff
(see Table 1).29




28
     The CustomerFirst! system is used by sales staff to manage business customer accounts and service requests.
29
     Table 1 represents lead sources that make up at least 1 percent of the total.


                                                          9
Small Business Growth                                                                                   MS-AR-13-009




             Table 1: Highest Close Rates by Sales Lead Source for FY 2012

                                               Percentage                            Average
                                                of Total                               Sold          Sold
                                    Lead          Lead                               Revenue/        Lead       Close
                                         30           31                        32         33             34         35
         Lead Source               Count        Count          Sold Revenue           Lead          Count       Rate
 Business Connect
 Territory
 Business Service Network
 Clerk Craft
 Grow Your Business Day’s
 – EDDM
 Priority Mail Regional Rate
 Campaigns
 Priority Mail Flat Rate Box
 Campaigns
 International Shipping
 2012 Campaigns
 Submit a Lead
 Customer Connect
 Rural Reach
 New Mailing Opportunity
 Program
 e-Commerce
Source: CustomerFirst!

We also conducted discussions with 24 postmasters who recorded significant revenue
in Business Connect and stated that they felt confident about selling postal service
products and services to small businesses. The confidence was due to awareness of
their role in building customer relationships and getting to know the customers'
businesses and not needing to know everything about products and services because
they could rely on their sales representatives. These strong relationships are beneficial
to growing small business revenue. For example, one postmaster stated that when a
local business person came into the Post Office to complain about missing and
damaged packages, the postmaster asked questions specific to their business. The
postmaster then contacted a sales representative for assistance and, after some
collaboration, generated a $2.5 million sale.

The Postal Service could promote these types of relationships, which would increase
postmaster confidence to generate more small business revenue by establishing a
process for requiring periodic meetings between postmasters and sales staff. As part of

30
   The total number of leads recorded by sales staff for that category.
31
   The percentage of leads for a particular category compared to the total number of leads.
32
   The total amount of sold revenue for a particular lead category.
33
   The average sold revenue per lead that is calculated by dividing sold revenue by lead count.
34
   The total number of leads that resulted in a sale.
35
   The number of leads converted to a sale. This is calculated by dividing the sold lead count by the lead count.


                                                          10
Small Business Growth                                                          MS-AR-13-009



this effort, it may be useful to develop clear communication paths for postmasters to get
needed support from either BDSs or sales staff to assist in their small business
revenue-generating efforts.

Sales Tools, Data, and Training

Sales-related tools, data, and training for postmasters are not readily available or used
effectively, which may limit a postmaster’s ability to generate small business revenue.
For example:

 The Business Connect Opportunity Tool Kit on the sales web page that provides
  information to postmasters about businesses to contact in their area is outdated.
  Specifically, we found that some businesses identified as “new” were established
  years ago. We also found that the Tool Kit does not provide other information that
  may be useful, such as market data on potential Express Mail® customers.

 Market data already being collected, purchased, and used by the sales group was not
  provided to postmasters. For example, 33 percent of surveyed postmasters said
  they did not know the business segments or industries they should target. Instead,
  65 percent rely on input from carriers and 16 percent rely on the Yellow Pages for
  sales leads.

 The sales organization has established a web page to provide guidance to
  postmasters when reaching out to small businesses as part of the Business Connect
  Program. However, we found the web page does not provide product-specific scripts,
  which could aid postmasters in conducting effective Business Connect meetings.

 Postmasters stated that they do not feel they have been sufficiently trained to be
  effective at generating small business revenue. According to our survey, 93 percent
  of postmasters stated they had less than 10 hours of training related to making sales
  to small businesses in the last year and 63 percent stated the Postal Service would
  benefit from providing them with additional training to close small business sales. In
  addition, 42 percent do not feel they are an effective sales representative for the
  Postal Service. Our survey also revealed the following responses:

   o "I think we, as postmasters, should all have sales training to learn how to talk to
     small business owners. We should shadow a sales representative so we know
     what we are doing and how to discuss their options with them."

   o "Yes, time is an issue for many postmasters, but I also think that I feel
     inadequate to give a knowledgeable presentation. Instead of the sales
     department hammering us with emails, they should have workshops for the
     employees. They could also bring postmasters along when they give
     presentations to customers. Give us real training, not a bunch of papers and a
     website."




                                            11
Small Business Growth                                                           MS-AR-13-009



   o "I think that if we are supposed to visit small business customers, then we need
     to be provided with adequate hands on training to show us how to execute a
     sale, what resources are available for us, and what products are to be targeted
     for small businesses."

Postal Service sales officials stated that sales tools, data, and training are available and
gave the example that postmasters are given key sales guidance on a quarterly basis.
However, after being briefed on our survey results, management recognized that the
current tools, data, and training may not be resonating with the postmasters.

The Postal Service could take action to establish a process for improving the availability
and usage of its sales-related tools, market data, and training. Specifically, the Postal
Service could provide postmasters with additional training on selling Postal Service
products and services, update the data in the Business Opportunity Tool Kit, and
provide postmasters with product sales scripts and market data.

Recommendations

We recommend the vice president, Sales, in coordination with the vice president,
Delivery and Post Office Operations:

1. Develop a clear strategy to increase the priority that postmasters and sales staff
   place on generating small business revenue, such as evaluating ways to allow
   postmasters more time to sell Postal Service products and services, setting
   Business Connect revenue targets, and increasing Business Connect meeting
   targets.

2. Establish processes for requiring periodic meetings between postmasters and sales
   staff and developing clear communication paths for postmasters to get needed
   support from either business development specialists or sales staff to assist in their
   small business revenue-generating efforts.

3. Establish a process for improving the availability and use of sales-related tools,
   market data, and training. The process should include providing postmasters
   additional training on selling Postal Service products and services, updating data in
   the Business Opportunity Tool Kit, and providing postmasters with product sales
   scripts and market data.

We recommend the vice president, Delivery and Post Office Operations:

4. Leverage the postmasters' community status by encouraging postmasters to submit,
   and management to approve, funding requests to join local civic organizations.




                                             12
Small Business Growth                                                        MS-AR-13-009



Management’s Comments

Management disagreed with recommendations 1, 2, and 4, as well as the monetary
impact. Management agreed with recommendation 3.

Regarding recommendation 1, management stated that they have a successful set of
well-defined processes in this area. They also stated that postmasters continue to log
sales and increase revenue significantly, and that they continue to evaluate the use of
postmasters’ time.

Regarding recommendation 2, management stated the OIG failed to demonstrate that
current processes are inadequate or that there is a valid need for additional support.

Management agreed with recommendation 3 and stated that, as part of the small
business strategy, the sales organization will support postmasters in building a
connection with their local business communities. Management stated that Sales and
Delivery and Post Office Operations will work together to determine the strategy and
communications for this effort, which should be completed by June 2014.

Management disagreed with recommendation 4 and stated that the audit failed to
demonstrate through data that there is a causal relationship between postmasters
belonging to civic organizations and revenue generation.

In response to the monetary impact estimate, while management stated they agreed
with the OIG’s methodology and assumptions around the revenue gain, they do not
agree with all of the recommendations and, therefore, do not believe the revenue gain
can be achieved. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments for recommendation 3 responsive.
However, the OIG considers management’s comments for recommendations 1, 2, and 4
to be unresponsive. Since management does not plan to take corrective action on these
three recommendations, the associated issues identified in the report will continue to
exist.

Regarding recommendation 1, while management stated that a well-defined set of
processes is in place, our audit work, particularly the survey results collected from
2,549 postmasters, showed that revenue generation was not considered a high priority
for the majority of postmasters. We continue to believe that developing and
implementing a strategy to increase the organizational priority placed on generating
small business revenue is needed.

Regarding recommendation 2, while management asserted that the OIG failed to
demonstrate that current processes are inadequate or that there is a valid need for
additional support, our survey results from 2,549 postmasters clearly showed that the



                                           13
Small Business Growth                                                         MS-AR-13-009



collaboration between postmasters and sales staff was not effective in generating small
business revenue. Specifically:

   Seventy-two percent of postmasters had not been invited to accompany a sales
    representative to a sales meeting in the past year.

   Forty-five percent of postmasters did not know who their sales representatives were.

   Fifty-one percent of postmasters had not met with a sales representative within the
    past year.

These results are concerning because (a) the FY 2012 Sales Management Process
states that local sales staff should routinely invite postmasters to accompany them to
customer meetings and request the postmasters to follow-up with customers and (b)
postmasters are encouraged to contact their local sales team for assistance with their
Business Connect opportunities. We believe these findings highlight issues with the
partnership between postmasters and sales staff, and that corrective actions would be
beneficial.

Regarding recommendation 4, while management asserted that the audit failed to
demonstrate through data that there is a causal relationship between postmasters
belonging to civic organizations and revenue generation, our analysis of 143 post
offices with membership fees to local business organizations paid by the Postal Service
in FY 2012 showed a significant ROI. Furthermore, fees or membership dues paid to
local business organizations can, and are, being funded under current Postal Service
policy for expenditures that further the business and competitive interests of the Postal
Service. We continue to believe that further leveraging the status of postmasters with
local small businesses through local civic memberships should be considered for
growing relationships and revenue with local small businesses.

In regard to management’s disagreement with our monetary impact estimate, we had
multiple discussions with management on the methodology, assumptions, and resulting
monetary impact. We also provided management with a possible revision to our original
estimate after issuing the draft report. However, we were unable to agree on a revision,
thus, believe our estimate is the best estimation of additional revenue if management
implemented the recommendations. We consider our proposal to be reasonable,
particularly if corrective actions are taken in response to our recommendations.

Management plans to take corrective action on recommendation 3. The OIG does not
consider management’s comments responsive to the finding and recommendations 1,
2, and 4 in the report, but does not plan to pursue them through the formal audit
resolution process. The OIG considers all the recommendations significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed for recommendation 3. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.



                                           14
Small Business Growth                                                       MS-AR-13-009



Recommendations 1, 2, and 4 will be closed with the issuance of this report since
management does not plan to take correction action.




                                          15
Small Business Growth                                                                               MS-AR-13-009




                                  Appendix A: Additional Information

Background

Small businesses36 play a vital role in the national economy and mailing industry. In
2013, there were about 23 million small businesses in the country. Small businesses
are one of the Postal Service’s key customer segments and, according to the Postal
Service, annually contribute about $9 billion in revenue. Postal Service data show that
in FY 2011 there were about 277,000 businesses with less than 500 employees which
spent between $5,000 to $30,000 on Postal Service products and services.

Developments in the small business and mailing and shipping marketplace provide an
opportunity for the Postal Service to grow its small business revenue. The small
business market, particularly those companies shipping between one and five packages
a day, represents a major opportunity because the Postal Service already offers many
products and services that meet companies' mailing and shipping needs. Recent
analysis of small businesses performed by the Postal Service’s sales organization
estimated that about             small businesses match their current customer profiles
and represent a potential                        . 37 Furthermore, projected growth in
e-Commerce represents a major opportunity for the Postal Service, as domestic and
international web sales continue to grow.

The Postal Service has recently renewed its focus on small business customers and
has facets of increasing small business revenue as part of various DRIVE initiatives,
including the following:

      Initiative 10: Shipping Growth — includes a focus on growing shipping products
       solutions for small businesses.

      Initiative 11: Transaction Mail Preservation — includes a focus on increasing
       revenue among small businesses and consumers.

      Initiative 12: Marketing Mail Growth — includes a focus on growing advertising mail
       and introducing small business customers to direct mail.

      Initiative 17: Commercial Mail Acceptance Transformation — includes deploying a
       tool to help small businesses prepare full-service mailings.

The Postal Service’s postmasters and sales staff both have responsibility for reaching
out to current and prospective small business customers. Sales staff are responsible for
program development, management, and support of various EEP. One of these
programs, Business Connect, focuses on encouraging postmasters to reach out to


36
     The SBA recently defined a small business as “an independent business having fewer than 500 employees.”
37
     Decision Analysis Report Business Case, EDDM - Inside Sales, February 2012.


                                                         16
Small Business Growth                                                                         MS-AR-13-009



small businesses to inform them of Postal Service products and services, build
relationships, and generate revenue.

The Postal Service’s Sales Department recently piloted a program called Inside Sales,
consisting of a group of about 100 employees from three outside contractors. During the
pilot program, these contractors were responsible for making outbound calls to sell
Every Door Direct Mail to small business customers. The Postal Service has been
pleased with the pilot and is in the process of expanding the program.

Objectives, Scope, and Methodology

Our objectives were to evaluate the effectiveness of the Postal Service’s postmasters'
and sales staff's efforts to grow revenue from small business customers and determine
opportunities for growth. To accomplish our objectives, we:

       Conducted a survey of 9,073 postmasters at Level 18 and above offices to collect
        information on their role in generating revenue from small business customers.

       Analyzed the survey results to determine the effectiveness of postmaster activities
        in achieving sales from small businesses.

       Obtained and analyzed FY 2012 data from the CustomerFirst!, Business Connect,
        and Accounting Data Mart databases.

       Judgmentally selected sites from Business Connect data with high and low revenue
        per activity performance and followed-up to determine opportunities and best
        practices.

       Interviewed key officials and subject matter experts on initiatives for growing
        revenue from small businesses and current operating procedures.

       Obtained and reviewed market research from The Colography Group, Inc.38

       Obtained and reviewed data from the February 2012 Decision Analysis Report
        Business Case EDDM — Inside Sales.

       Reviewed research and reports on best practices for sales organizations and
        strategies from leading organizations including the Audit Director’s Roundtable,
        Corporate Executive Board, FedEx, UPS, IBM, Accenture, Wharton Business
        School, Booz-Allen, and the Sales Executive Council.

We conducted this performance audit from September 2012 through June 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
38
     Target Market for Express Mail Packages, The Colography Group, Inc., October 25, 2011.


                                                         17
Small Business Growth                                                         MS-AR-13-009



evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 9, 2013, and included their
comments where appropriate. We assessed the reliability of Business Connect and
CustomerFirst! data by judgmentally following up on selected sites. While we did not
assess the reliability of data in the Accounting Data Mart, the OIG tests the financial
information as part of its annual financial statement audits. We determined that the data
were sufficiently reliable for the purposes of this report.




                                           18
  Small Business Growth                                                                MS-AR-13-009




  Prior Audit Coverage


                                                             Final Report
          Report Title              Report Number            Report Date          Monetary Impact
Carrier Contributions to Revenue        MS-AR-12-005               6/19/2012                None
Generation and Customer
Service
Report Results: Both city and rural carriers have direct access to small to mid-size business
customers while on their routes. Carriers have the opportunity to initiate conversations with
customers, potentially attracting new customers or expanding the use of Postal Service products and
services for existing customers. Management might also be missing key opportunities to grow
revenue because they lack complete data about the number and quality of sales leads. We
recommended management implement best practices for sales lead programs and enhance data
collection and reporting efforts to identify whether a lead results in new revenue for the Postal
Service or diverts revenue from another product. The Postal Service agreed to take corrective
action.

Survey of Postmasters’                 DR-MA-12-001               5/25/2012                 None
Paperwork and Reporting
Requirements
Report Results: Overall, postmasters’ survey responses indicated that reporting requirements were
appropriate. However, 32 percent indicated that some reports were excessive and contained
redundant information. Some postmasters also stated they never used certain reports and indicated
that headquarters, area, and district officials required them to prepare additional reports with
information already contained in the daily reports. We recommended the Postal Service evaluate
postmaster-required reports to assess duplication and determine whether reports can be combined
or modified, as necessary, to enhance office operations. We also recommended the Postal Service
review and reduce additional reporting requirements at post offices. Management stated they agreed
with the concept, however, they implemented actions when the reporting problem surfaced by
issuing a directive to field managers to eliminate manual reports and checklists where data was
already available. Management also stated they would continue to assess area and district officials’
additional reporting requirements to reduce duplicative requests.

Package Delivery Growth               MS-AR-12-003              5/4/2012           $90,000,000
                                                                                   Revenue Loss
                                                                                   (1 year);
                                                                                   $557,000,000
                                                                                   Increased Revenue
                                                                                   (2 years)
Report Results: This report identified forecasted growth in specific market segments where the
Postal Service has a competitive advantage, such as the low-cost, lightweight, B2C market
segments. Furthermore, we recommended the Postal Service develop enhancements to the
CustomerFirst! System to ensure the data and information within are reliable and useful and to
reassess Sales staffing levels and hiring processes to ensure there are sufficient numbers of
qualified staff to identify and capture package sale opportunities. The Postal Service agreed with our
findings and recommendations and set forth its plans for corrective actions.




                                                 19
Small Business Growth                                                                               MS-AR-13-009



                                    Appendix B: Monetary Impact

           Recommendation                     Impact Category                        Amount
                 1                      Increased Revenue Year 139                  $122,308,895
                 1                      Increased Revenue Years 2-3                 $687,965,057
           Total                                                                    $810,273,952

To calculate the monetary impact above, we reviewed data in the Business Connect
Data Center (BCDC) for FY 2012. We focused our attention on 17,658 postmasters and
managers that were Level 18 and above. They recorded 406,142 Business Connect
meetings (“activities”) and nearly $244 million in “estimated annualized revenue” in
FY 2012 (over 92 percent of Business Connect revenue in BCDC). We determined that
this range of postmasters and managers would be stationed where the majority of the
           in small business opportunity revenue identified earlier by the Postal Service
would be located.

After reviewing this data, we grouped these postmasters into three segments based on
their performance in Business Connect for FY 2012:

        Table 2: Business Connect Performance of Select Postmasters, FY 2012

                                             Group 1      Group 2
                                              (above     (between      Group 3
                                            $10,000 in    $78 and    (between $0
                                             revenue     $10,000 in   and $77 in
                                                per     revenue per revenue per
                                             activity)    activity)   activity)40                         Total
Number of Postmasters                               196        4,412       13,050                         17,658
Percentage of Total                                  1%          25%          74%                          100%
Total Number of Business                          3,898     128,342      273,902                         406,142
Connect Activities
Average Activities per                                  20                 29                  21            23
Postmaster
Total Estimated Annualize                      $104.2 M           $137.1 M               $2.6 M $243.9 M
Revenue
Range of Revenue Per Activity                   $10,061                   $78                  $0            $0
(low)
Range of Revenue Per Activity                  $604,075             $10,000                  $77 $604,075
(high)
Average Revenue Per Activity                    $26,724               $1,068                 $10           $601
Source: BCDC, FY 2012.




39
   Increased revenue from existing functions or revenue generated from new sources, perhaps because of
implementing a new marketing initiative.
40
   Of the 13,050 postmasters in Group 3, 9,639 reported $0 and 1,204 logged zero activities.


                                                       20
Small Business Growth                                                                                   MS-AR-13-009



We then estimated that corrective action taken to respond to recommendations 1-4
would gradually increase the effectiveness of the postmasters in Group 3. Specifically,
over a 3-year period, all Group 3 postmasters should be able to achieve average
revenue results ($1,068) comparable to those from Group 2.

To calculate the monetary impact associated with this proposal, we multiplied the
number of postmasters in Group 3 (13,050) by the 24 activities each postmaster is
asked to complete each year per the sales guidance. This results in an expected
313,200 activities each year. We then multiplied the 313,200 activities by the target
sales level for each activity from Group 2 ($1,068), which results in an overall revenue
increase target of $334,497,600.

We then made the following adjustments to this revenue target:

    Adjustment 1: Each year, reduced this target by the revenue achieved by this group
     in FY 2012 ($2,649,532).

    Adjustment 2: To factor in expected incremental improvement, we phased in the
     revenue over a 3-year period.

    Adjustment 3: We subtracted the expected annual training costs for all Level 18 and
     above postmasters.41

    Adjustment 4: We subtracted the estimated annual civic organization fee for all
     Level 18 and above postmasters.42

Based on those calculations and adjustments, we estimate that the Postal Service could
increase revenue by a total of $529 million over this 3-year period ($65.8 million +
$176.4 million + $287.0 million).




41
   We accounted for 40 hours of training for all postmasters for each of the 3 years. We multiplied the average rate of
$51 per hour by the 40 hours per postmaster for all 17,658 Level 18 and above postmasters for annual training costs
of $36,022,320 (40 x 17,658 x $51). Per hour costs were taken from the average FY 2012 pay rate for postmasters
from the Enterprise Data Warehouse’s Payroll Hours Summary Report.
42
   We accounted for the estimated annual civic organization fee for all postmasters for each of the 3 years. We
multiplied our estimate of $500 for all 17,658 Level 18 and above postmasters for an annual fee of $8,829,000.


                                                          21
Small Business Growth                                                                    MS-AR-13-009



              Table 3: Estimated Monetary Impact for Group 3 Postmasters

Group 3 Monetary Impact Estimate                     Fiscal Year 1    Fiscal Year 2   Fiscal Year 3
Original Revenue Target                               $334,497,600     $334,497,600    $334,497,600
FY 2012 Revenue - Adjustment 1                          (2,649,532)     (2,649,532)      (2,649,532)

Revised Revenue Target                                $331,848,068    $331,848,068     $331,848,068

Incremental Improvement Factor (one-                  $110,616,023    $221,232,045     $331,848,068
third each year) – Adjustment 2
Annual Training Costs – Adjustment 3                 ($36,022,320)    ($36,022,320)   ($36,022,320)
Annual Civic Organization Fees –                      ($8,829,000)     ($8,829,000)    ($8,829,000)
Adjustment 4
Expected Monetary Impact                               $65,764,703    $176,380,725     $286,996,748
Source: OIG estimate based on Postal Service data.

We then propose that, based on the actions taken above, it is reasonable to
assume that additional Business Connect activities would result in additional
revenue for the Postal Service. First, we estimate the potential impact of an additional
12 Business Connect activities each year for postmasters in Group 2. If each of these
4,412 postmasters completed one more activity a month (12 more per year), and each
activity resulted in, on average, $1,068 in revenue, then the Postal Service could expect
additional revenue of $56,544,192 each year.

Next, we estimated the potential impact of additional Business Connect activities for
postmasters in Group 3. Factoring in a similar phased-in approach from above, we
estimated the following:

   Year 1:

    o No additional activities.

   Year 2:

    o Six additional activities for one-third of the postmasters in the group (4,350)
      would result in an additional $28 million in revenue (4,350 postmasters with
      six additional activities, at $1,068 average revenue per activity, is $27,874,800).

   Year 3:

    o Six additional activities for another third of postmasters (another 4,350) that
      would generate another $28 million in revenue.

    o Six additional activities (resulting in 12 total additional activities) for
      the postmaster segment from Year 2. This would result in $56 million
      (4,350 postmasters with 12 total additional activities, at $1,068 average
      revenue per activity, is $55,749,600).


                                                       22
Small Business Growth                                                              MS-AR-13-009




Based on those calculations, we estimate that the Postal Service could increase
revenues by a total of $281 million over this 3-year period.

    Table 4: Estimated Monetary Impact for Additional Business Connect Activities
                         for Postmasters in Groups 2 and 3

                  Actions                             Year 1       Year 2         Year 3
Group 2
Twelve additional activities for 4,412               $56,544,192   $56,544,192    $56,544,192
postmasters in each year
Group 3
A total of six additional activities in                        0    27,874,800     55,749,600
Year 2 and 12 additional activities in
Year 3 for 4,350 postmasters
A total of six additional activities in                        0            0      27,874,800
Year 3 for a second set of 4,350
postmasters.
Expected Monetary Impact                             $56,544,192   $84,418,992   $140,168,592
Source: OIG estimate based on Postal Service data.

Based on the above analysis, we estimate over $810 million in monetary impact over
this 3-year period:

    Year 1 - $122 million ($65,764,703 + $56,544,192).
    Year 2 - $261 million ($176,380,725 + $84,418,992).
    Year 3 - $427 million ($286,996,748 + $140,168,592).
    Total - $810 million.




                                                       23
Small Business Growth                                                                                                         MS-AR-13-009



                                           Appendix C: Postmaster Survey
 The U.S. Postal Service Office of Inspector General is conducting this anonymous survey of select Postmasters to collect information on their
 roles in generating revenue from small business customers. For the purpose of this survey, we are defining small businesses as those with
 less than 500 employees. We estimate this survey should not take more than 15 minutes to complete. We understand and appreciate your
 very busy schedules and would like to thank you in advance for your timely responses. If you have any questions about this survey, please
 contact Doralyn Wilson, Auditor, at dwilson@uspsoig.gov or Chad Stroup, Auditor, at cstroup@uspsoig.gov
 1.      _______ How many Business Connect contacts are you required to make each year?

 2.                Is it your understanding that the Business Connect program is a lead generation program similar to Customer Connect and
                   Rural Reach and Submit a Lead? In other words you believe that once you put the Business Connect info into the system
                   someone from the Sales group will follow up on that lead.
                   Yes
                   No

 3.      _______ When recording your Business connect activities, is it important to report revenue from those activities?
                 Yes
                 No

 4.                Do you have a sales revenue goal for Business Connect?
                   Yes
                   No

 5.                Has the Postal Service conveyed the message that a new dollar of revenue (making a sale) is equal to a dollar saved in
                   operations?
                   Yes
                   No

 6.                What challenges, if any, do you face in generating small business revenue from your Business Connect contacts? Select all
                   that apply.
                   I do not have time to meet with prospective small business customers.
                   I have not been properly trained to sell USPS products and services to small businesses.
                   Prospective small business customers have been unwilling to discuss USPS products and services.
                   Closing sales with small businesses is not communicated as something I need to make a priority in my day.
                   I am unable to meet small businesses' request for pick up.
                   Other; please explain. ________________________________________________________
                   I do not face any challenges.

 7.      _______ On average, how many hours a week do you spend seeking small business sales? This would include time looking for
                 small business opportunities and meeting with current and prospective small business customers.

 8.                How have you identified the small businesses you have contacted? Select all that apply.
                   Check the Yellow Pages
                   Ask carriers
                   Ask other employees
                   Use Business Connect 5 Digit Zip Code Opportunity Tool
                   Personal knowledge
                   Grow Your Business Days
                   Other - please state. _____________________________________________________________

 9.                From question 7, if you did not select the Business Connect 5 Digit Zip Code Opportunity Tool, why? Select all that apply
                   Not aware of this tool
                   Aware of this tool, but the tool is not helpful
                   I am very familiar with the businesses in my area - do not need to use the tool
                   Other - please explain. ______________________________________________________________




                                                                      24
Small Business Growth                                                                                                      MS-AR-13-009



10.              Does the Postal Service sponsor your membership to any civic organization such as the Chamber of Commerce?
                 Yes
                 If yes, please list organizations ______________________________________________________________
                 No
                 If no, please list reason _______________________________________________________________

11.              How are you encouraged to generate small business revenue?
                 Recognition
                 USPS paid small business organization membership
                 Regular reporting of performance
                 Gaining small business sales has not been communicated to me as a priority
                 Other - please list

12.              Have you contacted customers that operate small businesses in the USPS's identified target industries?
                 Yes
                 No

13.              If you answered no to question # 12, please select all that apply: (If you answered yes please skip this question)
                 I do not know what the targeted industries are.
                 I know the targteted industries but I do not have time to devote to finding these customers
                 There is no easy way to know who or where they are
                 Other - please explain. _____________________________________________

14.              Have you contacted customers that operate small home based businesses?
                 Yes
                 No

14a.             If you answered yes to question # 14, how did you contact them, please select all that apply:
       _______   Phone Calls
       _______   Emails
       _______   Postcard/Letter in a business customers P.O. Box
       _______   Face-to-face Meetings
       _______   Grow Your Business Days
       _______   External events such as conferences or local organizations (Rotary Club)

14b.             If you answered yes to question # 14, how did you learn of them, please select all that apply:
                 Carriers
                 Other employees
                 Personal knowledge
                 Grow Your Business Days
                 Other - please state. _____________________________________________________________

14c              If you answered no to question # 14, please select all that apply:
                 There is no easy way to know who or where they are
                 Gaining small business sales has not been communicated to me as a priority
                 These leads would come from carriers and are entered into Customer Connect for the Sales group to follow up on
                 Other - please explain. _____________________________________________




                                                                    25
Small Business Growth                                                                                                       MS-AR-13-009



15.                Please rate each of the following for how often you use them to complete your Business Connect activities? Rate them on
                   a scale of 0-5 with 0 - Never, 3 - Sometimes, and 5 - Always.
         _______   Phone Calls
         _______   Emails
         _______   Postcard/Letter in a business customers P.O. Box
         _______   Face-to-face Meetings
         _______   Grow Your Business Days
         _______   External events such as conferences or local organizations (Rotary Club)

16.                How effective do you think each of the following methods are in promoting small business sales? Rate them on a scale of
                   0-5 with 0 - Not Effective, 3 - Sometimes effective, and 5 - Always Effective.
         _______   Phone Calls
         _______   Emails
         _______   Postcard/Letter in a business customers P.O. Box
         _______   Face-to-face Meetings
         _______   Grow Your Business Days
         _______   External events such as conferences or local organization meetings such as Chamber of Commerce

17.                Do you believe that you are an effective sales representative for the USPS to the small business customer?
                   Yes (please go to question 17a )
                   No (please go to question 17b )

  17a.             If you answered yes to question #17, why?
                   The Postal Service has provided sufficient training for making sales.
                   I have had an opportunity to work with and learn sales techniques from my local sales representative.
                   I have had past sales experience within the Postal Service.
                   I have had past sales experience outside of the Postal Service.
                   Other - please explain. __________________________________________________________________________

  17b.             If you answered no to question #17, why?
                   Have not received sufficient training for making sales.
                   Have not had enough experience in making sales.
                   Has not been a focus during my time as a postmaster.
                   Other - please explain. ________________________________________________________________

18.                In the last year, how much training have you received related to making sales to small businesses?
                   less than 10 hours
                   10 - 40 hours
                   More than 40 hours

19.                Do you think the USPS would benefit from providing you with additional training to close sales to small businesses?
                   Yes
                   No

20.                Do you know who your Sales representative is?
                   Yes (please go to question 20a )
                   No

  20a.             Please provide name and/or title. __________________________________________________________




                                                                     26
Small Business Growth                                                                                                        MS-AR-13-009



 21.               When was the last time you had a face to face meeting with a representative from the Sales group?
                   Have not met a Sales employee
                   0-3 months ago
                   3-6 months ago
                   6-9 months ago
                   9-12 months ago
                   More than one year ago

 22.              In the past year, how many times has your sales representative invited you to accompany them to a meeting with a small
          _______ business customer?

 23.               Are you aware of a small business customer(s) that would use USPS products and services, but there is a road block that is
                   preventing them from doing so?
                   Yes (please go to question 23a )
                   No

   23a.            If Yes to question 23, what is(are) the road block(s)?
                   No staff available to pick up mail at the time the customer requested
                   No hours in my budget to provide pick up service
                   Support needed from Plant or District to close sale
                   Other - please explain. _________________________________________________________________________

 24.               How much annual revenue was lost because the road block could not be successfully removed?
                   Please provide estimated loss of annual revenue _________________
                   Do not know amount.

 25.               How often do you have stand up talks with your employees promoting the employee engagement programs?
                   Weekly
                   Bi-weekly
                   Monthly
                   Quarterly
                   Annually
                   I do not have stand up talks promoting the employee engagement programs
                   I do not have employees

 26.               What feedback do you receive most often from employees about employee engagement programs? (Select all that apply)
                   Excitement and willingness to generate leads
                   Do not have time.
                   I am not trained.
                   What's in it for me?
                   Lack of feedback from previous leads
                   Other - please explain. ______________________________________________________________________

 27.               Any other comments you would like to make regarding small business revenue generation that you think may be helpful.




                                                                     27
Small Business Growth                                       MS-AR-13-009




                        Appendix D: Management's Comments




                                       28
Small Business Growth        MS-AR-13-009




                        29
Small Business Growth        MS-AR-13-009




                        30
